                                                                                                         ..



                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




        NSF OIG reviewed Complainant's concerns about possible hnding of an undergraduate course
        that would provide ''fieem courseware.

        A review of the proposal' did not reveal any obvious problems. An interview with the cognizant
        program officer2to discuss the issues did not reveal any problems with either the preliminary
        proposal or the formal proposal.
                                                                                                              I
        During a telephone interview with the complainant3he explained that there was "nothing
        untoward" in the proposal, and his concern was that NSF should spend money on proposals
        where there were no currently commercial alternatives. I explained that NSF's mandate foi
        funding is very broad and that NSF OIG's jurisdictional limits do not allow us to interfere with
        the merit review process.
                                                                                                              1
        The complainant was asked if there were any intellectual property issues (i.e., copyright,
        trademark, or patent violations) and he indicated that there were none. In short, there are no        I
        allegations of wrongdoing or of scientific misconduct where NSF OIG has jurisdiction.
                                                                                                              I
        Accordingly, this case is closed.

                                                                                                              I
                                                                                                              I




                                                                                                                  I




                                                                                                                  i




1
NSF 01G Form 2 (1 1/02)
